CASE NO.

IN THE SUPREME COURT OF THE UNITED STATES

IN RE: TIMOTHY KING, MARIAN ELLEN SHERIDAN, JOHN
EARL HAGGARD, CHARLES JAMES RITCHARD, JAMES DAVID
HOOPER and DAREN WADE RUBINGH,
Plaintiffs/Petitioners.
PETITION FOR WRIT OF CERTIORARI PURSUANT TO 28
U.S.C. § 1651(a), On Petition for a Writ of Certiorari to the
United States Federal District Court for the Eastern District of
Michigan
SIDNEY POWELL
STEFANIE LAMBERT JUNTTILA
Attorney for Plaintiffs/Petitioners
TIMOTHY KING, MARIAN ELLEN SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES DAVID HOOPER and
DAREN WADE RUBINGH
500 Griswold Street, Suite 2340
Detroit, MI 48226
(248) 270-6689
attorneystefanielambert@gmail.com
HOWARD KLEINHENDLER
Attorney for Plaintiff/Petitioners
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

ERIK A. GRILL
HEATHER S. MEINGAST
Michigan Department of Attorney General
Civil Litigation, Employment & Elections Division
Attorney for Defendants/Respondents
Attorneys for GRETCHEN WHITMER, in her official capacity as Governor of
the State of Michigan, JOCELYN BENSON, as Michigan Secretary of State
and the Michigan BOARD OF STATE CANVASSERS
PO Box 30736
Lansing, MI 48909
517-335-7659
Email: grille@michigan.gov
DARRYL BRESSACK
DAVID H. FINK and NATHAN J. FINK
Attorneys for Intervenor Defendant and
Respondent City of Detroit
38500 Woodward Avenue; Suite 350
Bloomfield Hills, MI 48304
248-971-2500
Email: dbressack@finkbressack.com
ANDREW A. PATERSON, JR.
Attorney for Robert Davis
46350 Grand River Ave.
Novi, MI 48374
248 568-9712 Email: aap43@hotmail.com
MARY ELLEN GUREWITZ
Attorney for Intervenor
Democratic National Committee
Cummings & Cummings Law PLLC
423 North Main Street; Suite 200
Royal Oak, MI 48067
313-204-6979
Email: megurewitz@gmail.com
SCOTT R. ELDRIDGE
Attorney for Intervenor Defendant
Michigan Democratic Party
Miller, Canfield,
One Michigan Avenue; Suite 900
Lansing, MI 48933-1609
517-483-4918
Email: eldridge@millercanfield.com

DANIEL M. SHARE
EUGENE DRIKER
STEPHEN E. GLAZEK
Attorney for Michigan State Conference NAACP
Barris, Sott, Denn & Driker, PLLC
333 West Fort Street; 12th Floor
Detroit, MI 48226
313-965-9725
Email: dshare@bsdd.com
EZRA D. ROSENBERG
Lawyers' Committee for Civil Rights Under Law
1500 K Street, NW; Suite 900
Washington, DC 20005
202-662-8345
Email: erosenberg@lawyerscommittee.org
JON GREENBAUM
Lawyers' Committee for Civil Rights Under Law
District Of Columbia
1500 K Street NW
Ste 9th Floor
Washington, DC 20005
202-662-8315
Email: jgreenbaum@lawyerscommittee.org

ISSUES PRESENTED
I. THE TRIAL COURT ERRED WHEN IT DENIED THE
PETITIONERS’ EMERGENCY MOTION WITOUT EVEN A HEARING OR
ORAL ARGUMENT FOR DECLARATORY, EMERGENCY, AND
PERMANENT INJUNCTIVE RELIEF WHEN THE PETITIONERS HAD
PRESENTED A PRIMA FACIE CASE SETTING FORTH CLAIMS OF
WIDESPREAD VOTER IRREGULARITIES AND FRAUD IN THE STATE
OF MICHIGAN IN THE PROCESSING AND TABULATION OF VOTES
AND ABSENTEE BALLOT. THE TRIAL COURT COMPLETELY AND
UTTERLY IGNORGED THE DOZENS OF AFFIDAVITS, TESTIMONIALS,
EXPERT OPINIONS, DIAGRAMS AND PHOTOS THAT SUPPORTED THE
PETITIONERS’ CLAIM SEEKING AN INJUNCTION OF THE VOTING
PROCESS.
A. WHETHER THE PETITIONERS HAVE PRESENTED
SUFFICIENT EVIDENCE TO SUPPORT THREE CLAIMS PURSUANT TO
42 USC§ 1983: (Count I) VIOLATION OF THE ELECTIONS AND
ELECTORS CLAUSES; (Count II) VIOLATION OF THE FOURTEEN
AMENDMENT EQUAL PROTECTION CLAUSE AND (Count III) DENIAL
OF THE FOURTEENTH AMENDMENT DUE PROCESS CLAUSE AND A
VIOLATION OF THE MICHIGAN ELECTION CODE?
B. WHETHER THE PETITIONERS PRESENTED SUFFICIENT
EVIDENCE WHICH WAS IGNORED BY THE DISTRICT TO WARRANT A
PRELIMINARY INJUNCTION WHERE THE PROFFERED EVIDENCE
ESTALBLISHED LIKEHOOD OF SUCCESS ON THE MERITS, THAT THE
PETITIONERS WOULD SUFFER IRREPARABLE HARM IN THE
ABSENCE OF PRELIMINARY RELIEF AND THAT THE BALANCE OF
EQUITIES TIPS IN THIE FAVOR AND THAT AN INJUNCTION IS IN THE
PUBLIC INTEREST?
II. WHETHER THE DISTRICT COURT ERRED WHEN IT
DISMISSED THE PETITIONERS EMERGENCY MOTION AND REQUEST
FOR PRELIMINARY INJUNCTION WHEN THE COURT HELD THAT THE
PETITIONERS STATE LAW CLAIMS AGAINST RESPONDENTS WERE
BARRED BY ELEMENTH AMENDMENT IMMUNITY?
III. WHETHER THE DISTRICT COURT ERREONEOUSLY HELD
THAT THE PETITIONERS CLAIMS SEEKING A PRELIMINARY
INJUNCTION WERE BARRED AS BEING MOOT WHEN THE
ELECTORAL COLLEGE HAS YET TO CERTIFY THE NATIONAL
ELECTION AND AS SUCH THE RELIEF REQUESTED IS TIMELY?

i

IV. WHETHER THE DISTRICT COURT ERRED WHEN IT HELD
THAT THE PETITIONERS CLAIMS WERE BARRED BY THE DOCTRINE
OF LACHES WHEN THE CLAIMS WERE IN FACT TIMELY MADE AND
ARE ADDRESSING HARM THAT IS CONTINUING AND FORTHCOMING
AND THE RESPONDENTS ARE NOT PREJUDICIED BY ANY DELAYS IN
THE FILING BY THE PETITIONERS?
V. WHETHER THE DISTRICT COURT ERRED WHEN IT
DISMISSED THE PETITIONERS CLAIMS BASED ON THE ABSTENTION
DOCTRINE IDENTIFIED IN THE US SUPREME COURT CASE OF
COLORADO RIVER WITHOUT ANY SHOWING OF PARALLEL STATE
COURT PROCEEDINGS THAT ADDRESS THE IDENTICAL RELIEF
SOUGHT?
VI. WHETHER THE DISTRICT COURT ERRED WHEN IT FOUND
THAT THE PETITIONERS FAILED TO SHOW THAT THEIR INJURY CAN
BE REDRESSED BY THE RELIEF SOUGHT AND HELD THAT THE
PETITIONERS POSSESS NO STANDING TO PURSUE THEIR EQUAL
PROTECTION CLAIM WHEN GIVEN THE EVIDENCE PRESENTED AND
THE RELIEF SOUGHT, THE ISSUE OF VOTER FRAUD AND
VALIDATION OF ELECTION IS THE VERY RELIEF THAT A COURT CAN
REDRESS PURSUANT TO THE EQUAL PROTECTION AND THE
PETITIONERS CLEARLY HAVE STANDING?
VII. WHETHER THE DISTRICT COURT ERRED WHEN IT FOUND
THAT PETITIONERS CLAIMS WERE BARRED BECAUSE THE COURT
DETERMINED THE PETITIONERS “ASSERT NO PARTICULARIZED
STAKE IN THE LITIGATION” AND FAILED TO ESTABLISH AN INJURYIN-FACT AND THUS LACK STANDING TO BRING THEIR ELECTIONS
CLAUSE AND ELECTORS CLAUSE CLAIMS WHEN THE PETITIONERS
ARE THE VERY INDIVIDUALS WHO CAN ASSERT THIS CLAIM AND
HAVE PROPER STANDING TO DO SO?

ii

PARTIES TO THE PROCEEDINGS AND STANDING
All parties appear in the caption of the case on the cover page.
Each of the following Plaintiffs/Petitioners are registered Michigan
voters and nominees of the Republican Party to be a Presidential Elector on
behalf of the State of Michigan: Timothy King, a resident of Washtenaw
County, Michigan; Marian Ellen Sheridan, a resident of Oakland County,
Michigan; and, John Earl Haggard, a resident of Charlevoix, Michigan;
Each of these Plaintiffs/Petitioners has standing to bring this action as
voters and as candidates for the office of Elector under MCL §§ 168.42 &
168.43 (election procedures for Michigan electors).As such, Presidential
Electors “have a cognizable interest in ensuring that the final vote tally
reflects the legally valid votes cast,” as “[a]n inaccurate vote tally is a concrete
and particularized injury to candidates such as the Electors.” Carson v.
Simon, 978 F.3d 1051, 1057 (8th Cir. 2020) (affirming that Presidential
Electors have Article III and prudential standing to challenge actions of
Secretary of State in implementing or modifying State election laws); see also
McPherson v. Blacker, 146 U.S. 1, 27 (1892); Bush v. Palm Beach Cty.
Canvassing Bd., 531 U.S. 70, 76 (2000) (per curiam). Each brings this action
to set aside and decertify the election results for the Office of President of the
United States that was certified by the Michigan Secretary of State on
November 23, 2020. The certified results showed a plurality of 154,188 votes
in favor of former Vice-President Joe Biden over President Trump.
Petitioner James Ritchard is a registered voter residing in Oceana
County. He is the Republican Party Chairman of Oceana County. Petitioner
James David Hooper is a registered voter residing in Wayne County. He is the
Republican Party Chairman for the Wayne County Eleventh District.
Petitioner Daren Wade Ribingh is a registered voter residing in Antrim
County. He is the Republican Party Chairman of Antrim County.
Respondent Gretchen Whitmer (Governor of Michigan) is named herein
in her official capacity as Governor of the State of Michigan. Respondent
Jocelyn Benson (“Secretary Benson”) is named as a defendant/respondent in
her official capacity as Michigan’s Secretary of State. Jocelyn Benson is the
“chief elections officer” responsible for overseeing the conduct of Michigan
elections. Respondent Michigan Board of State Canvassers is “responsible for
approv[ing] voting equipment for use in the state, certify[ing] the result of
elections held statewide….” Michigan Election Officials’ Manual, p. 4. See also
MCL 168.841, etseq. On March 23, 2020, the Board of State Canvassers
certified the results of the 2020 election finding that Joe Biden had received
154,188 more votes than President Donald Trump.
iii

TABLE OF CONTENTS
ISSUES PRESENTED………………………………………………….

i

PARTIES TO THE PROCEEDINGS AND STANDING………………… iii
TABLE OF CONTENTS………………………………………………..

iv

INDEX TO APPENDICES……………………………………………..

vi

TABLE OF AUTHORITIES……………………………………………

vii

INTRODUCTION……………………………………………………………… 1
OPINION BELOW………………………………………………………

3

JURISDICTION………………………………………………………….

3

CONSTITUTIONAL AND STATUTORY PROVISIONS………………… 5
STATEMENT OF THE CASE………………………………………………. 6
REASONS IN SUPPORT OF GRANTING WRIT OF CERTIORARI

10

ARGUMENTS
I. THE TRIAL COURT ERRED WHEN IT DENIED THE
PETITIONERS’ EMERGENCY MOTION WITOUT EVEN A HEARING OR
ORAL ARGUMENT FOR DECLARATORY, EMERGENCY, AND
PERMANENT INJUNCTIVE RELIEF WHEN THE PETITIONERS HAD
PRESENTED A PRIMA FACIE CASE SETTING FORTH CLAIMS OF
WIDESPREAD VOTER IRREGULARITIES AND FRAUD IN THE STATE
OF MICHIGAN IN THE PROCESSING AND TABULATION OF VOTES
AND ABSENTEE BALLOT. THE TRIAL COURT COMPLETELY AND
UTTERLY IGNORGED THE DOZENS OF AFFIDAVITS, TESTIMONIALS,
EXPERT OPINIONS, DIAGRAMS AND PHOTOS THAT SUPPORTED THE
PETITIONERS’ CLAIM SEEKING AN INJUNCTION OF THE VOTING
PROCESS.
10
A. THE PETITIONERS HAVE PRESENTED SUFFICIENT
EVIDENCE TO SUPPORT THREE CLAIMS PURSUANT TO 42 USC§ 1983:
VIOLATION OF THE ELECTIONS AND ELECTORS CLAUSES;
VIOLATION OF THE 14TH AMENDMENT EQUAL PROTECTION CLAUSE
AND (Ct III) DENIAL OF THE 14th AMENDMENT DUE PROCESS
CLAUSE AND A VIOLATION OF THE MICHIGAN ELECTION CODE. 11
iv

B. THE PETITIONERS PRESENTED SUFFICIENT EVIDENCE
WHICH WAS IGNORED BY THE DISTRICT TO WARRANT A
PRELIMINARY INJUNCTION WHERE THE PROFFERED EVIDENCE
ESTALBLISHED LIKEHOOD OF SUCCESS ON THE MERITS, THAT THE
PETITIONERS WOULD SUFFER IRREPARABLE HARM IN THE
ABSENCE OF PRELIMINARY RELIEF AND THAT THE BALANCE OF
EQUITIES TIPS IN THIE FAVOR AND THAT AN INJUNCTION IS IN THE
PUBLIC INTEREST.
12
II. THE DISTRICT COURT ERRED WHEN IT DISMISSED THE
PETITIONERS EMERGENCY MOTION AND REQUEST FOR
PRELIMINARY INJUNCTION WHEN THE COURT HELD THAT THE
PETITIONERS STATE LAW CLAIMS AGAINST RESPONDENTS WERE
BARRED BY ELEMENTH AMENDMENT IMMUNITY.
14
III. THE DISTRICT COURT ERREONEOUSLY HELD THAT THE
PETITIONERS CLAIMS SEEKING A PRELIMINARY INJUNCTION WERE
BARRED AS BEING MOOT WHEN THE ELECTORAL COLLEGE HAS YET
TO CERTIFY THE NATIONAL ELECTION AND AS SUCH THE RELIEF
REQUESTED IS TIMELY.
15
IV. THE DISTRICT COURT ERRED WHEN IT HELD THAT THE
PETITIONERS CLAIMS WERE BARRED BY THE DOCTRINE OF LACHES
WHEN THE CLAIMS WERE IN FACT TIMELY MADE AND ARE
ADDRESSING HARM THAT IS CONTINUING AND FORTHCOMING AND
THE RESPONDENTS ARE NOT PREJUDICIED BY ANY DELAYS IN THE
FILING BY THE PETITIONERS.
16
V. THE DISTRICT COURT ERRED WHEN IT DISMISSED THE
PETITIONERS CLAIMS BASED ON THE ABSTENTION DOCTRINE
IDENTIFIED IN THE US SUPREME COURT CASE OF COLORADO RIVER
WITHOUT ANY SHOWING OF PARALLEL STATE COURT
PROCEEDINGS THAT ADDRESS THE IDENTICAL RELIEF
SOUGHT.
20
VI. THE DISTRICT COURT ERRED WHEN IT FOUND THAT THE
PETITIONERS FAILED TO SHOW THAT THEIR INJURY CAN BE
REDRESSED BY THE RELIEF SOUGHT AND HELD THAT THE
PETITIONERS POSSESS NO STANDING TO PURSUE THEIR EQUAL
PROTECTION CLAIM WHEN GIVEN THE EVIDENCE PRESENTED AND
THE RELIEF SOUGHT, THE ISSUE OF VOTER FRAUD AND
VALIDATION OF ELECTION IS THE VERY RELIEF THAT A COURT CAN
REDRESS PURSUANT TO THE EQUAL PROTECTION AND THE
PETITIONERS CLEARLY HAVE STANDING.
22
v

VII. WHETHER THE DISTRICT COURT ERRED WHEN IT FOUND
THAT PETITIONERS CLAIMS WERE BARRED BECAUSE THE COURT
DETERMINED THE PETITIONERS “ASSERT NO PARTICULARIZED
STAKE IN THE LITIGATION” AND FAILED TO ESTABLISH AN INJURYIN-FACT AND THUS LACK STANDING TO BRING THEIR ELECTIONS
CLAUSE AND ELECTORS CLAUSE CLAIMS WHEN THE PETITIONERS
ARE THE VERY INDIVIDUALS WHO CAN ASSERT THIS CLAIM AND
HAVE PROPER STANDING TO DO SO?
24
CONCLUSION………………………………………………………

25

CERTIFICATE OF SERVICE………………………………………

INDEX TO APPENDICES
Lower Court King Et al vs. Whitmer Et al, Case No. 20-cv-13134, US
District Court, Eastern District of Michigan, Exhibits 1-43, PgID 9581831)
Page No.
1.
Civil Docket For Case 20-cv-13134
1-12
2.
Exhibit 1 R. 6 Amended Complaint
13-97
3.
Exhibit 2 R. 6-1 Redacted Declaration
98-105
4.
Exhibit 3 R 6-2 Ballot Making Devices (BMD) Cannot Assure Will
of Voters
106-133
5
Exhibit 4 R 6-3 Affidavits including Abbie Helminen, Andrew
Mill, Anna Pennala, Etc. 234 pages
134-367
6.
Exhibit 5 R. 6-4 Constantino v. City of Detroit
368-444
7.
Exhibit 6 R. 6-5 Mellissa Carona
445-447
8.
Exhibit 7 R. 6-6 Jessica Connard
448-451
9.
Exhibit 8 R. 6-7 Matt Ciantar
452-454
10. Exhibit 9 R. 6-8 Dominion Voting System Contract 455-615
11. Exhibit 10 R. 6-9 Texas-Preliminary Statement, Dominion Voting
System
616-618
12 Exhibit 11 R. 6-10 Kayla Toma
619-625
13. Exhibit 12 R. 6-11 Monica Palmer
626-631
14 Exhibit 13 R. 6-12 William Hartmann
626-631
15 Exhibit 14 R. 6-13 Patrick Colbeck
637-643
16 Exhibit 15 R. 6-14 Patrick Colbeck
644-645
17 Exhibit 16 R 6-15 Carlos Malony, Member of Congress 646-647
18 Exhibit 17 R. 6-16 US Senators Letter
648-662
vi

19 Exhibit 18 R. 6-17 Ann Cardozo
663-667
20 Exhibit 19 R. 6-18 Cybersecurity Advisory, IRAN
668-677
21 Exhibit 20 R. 6-19 Joseph Oltrann
678-683
22 Exhibit 21 R. 6-20 Marian Sheridan
684-685
23 Exhibit 22 R. 6-21 Analysis of Surveys
686-705
24 Exhibit 23 R. 6-22 Statistical Voting Analysis in the Michigan 2020
Presidential Election
706-713
25 Exhibit 24 R. 6-23 Matt Braynard on Twitter
714
26 Exhibit 25 R. 6-24 Russel James Ramsland, Jr.
715-722
27 Exhibit 26 R. 6-25 Electronic Intelligence Analyst
723-739
28 Exhibit 27 R. 6-26 Ronald Watkins
740-746
29 Exhibit 28 R. 6-27 Harri Hursti
747-803
30 Exhibit 29 R. 6-28 Electronic J. Alex Halderman
804-913
31 Exhibit 30 R. 6-29 Michigan 2020 Voter Analysis
report, 11-17-20
914-970
32 Exhibit 31 R. 6-30 Redacted Declaration
971-974
33. Exhibit 32 R. 7 Motion for Temporary Restraining Order 975-992
34. Exhibit 33 R. 49 Reply to response Re: Emergency Motion for
Temporary Restraining Order
993-1025
35. Exhibit 34 R. 49-1 Response to Stephen Ansolabehere’s Comments
Regarding Absentee Ballots Across
Several States
1026-1029
35. Exhibit 35 R. 49-2 Expert report of Eric Quinnell, PhD 1030-1035
36. Exhibit 36 R. 49-3 Expert Report of Russell J.
1036-1068
37. Exhibit 37 R. 49-4
Redacted Affidavit
1069-1077
38. Exhibit 38 R. 57 Supplemental Brief Re: Motion for Temporary
Restraining Order.
1078-1082
39. Exhibit 39 R. 57-1 Freehan v. Wisconsin
Elections Comm
1083-1092
40. Exhibit 40 R. 57-2 Amended Complaint Freehan vs. Wisconsin
Elections Committee
1093-1143
41 Exhibit 41 R. 60 Response to Emergency Motion for Temporary
Restaining Order
144-1146
42. Exhibit 42 R. 62, OPINION AND ORDER DENYING
PLAINTIFFS’ “EMERGENCY MOTION FOR DECLARATORY,
EMERGENCY, AND PERMANENT INJUNCTIVE RELIEF” PgID 32953330
1147-1182
43. Exhibit 42, R. 64 Notice of Appeal
1183
vii

TABLE OF AUTHORITIES
CASES

PAGE

Am. Civil Liberties Union of Kentucky v. McCreary Cnty., Ky., 354 F.3d
438, 445 (6th Cir. 2003) aff’d sub nom.
22
Ariz. State Legislature v. Ariz. Indep. Redistricting Comm’n,
576 U.S. 787 (U.S. 2015)

6, 7

Baker v. Carr, 369 U.S. 186 (1962)

20

Barrow v. Detroit Mayor, 290 Mich. App. 530 (2010

21

Bush v. Gore, 531 U.S. 98, 113 (2000)

3, 5, 22

Cheney v. U.S. Dist. Court, 542 U .S. 367 (2004)

4

Colorado River Water Conservation Dist. v. United States, 424 U.S. 800,
808 (1976)
16-18
Ex Parte Republic of Peru, 63 S.Ct. 793 (1943)

4

FTC v. Dean Foods Co., 86 S.Ct. 1738 (1966)

5

George v. Haslam, 112 F.Supp.3d 700, 710 (M.D. Tenn. 2015)

21

Graco Children's Products, Inc. v. Regalo International, LLC,
77 F. Supp. 2d 660, 662 (E.D. Pa. 1999)
18
In RocheEvaporated Milk Ass’n, 63 S.Ct. 938, 941 (1943),

5

Hamlin v. Saugatuck Twp.,299 Mich. App. 233 (2013)

20-21

Harman v. Forssenius, 380 U.S. 528 (1965)

17, 25

Louisville Bedding Co. v. Perfect Fit Indus., 186 F. Supp. 2d 752
Dist. LEXIS 9599
18
Lujan v. Defenders of Wildlife, 504 U.S. 555 (1992)

21

McCreary Cnty., Ky., v. Am. Civil Liberties Union of Ky.,
545 U.S. 844 (2005)

22

viii

Meade v. Pension Appeals and Review Committee,
966 F.2d 190 (6th Cir. 1992)

15

Obama for America vs. Husted, 697 F.3d 423 (6th Cir. 2012)
Ohio Citizens for Responsible Energy, Inc. v. NRC,
479 U.S. 1312 (1986)

4

Reynolds v. Sims, 377 U.S. 533 (1964)

20

Russell v. Lundergan-Grimes, 784 F.3d 1037 (6th Cir. 2015).
Smiley v. Holm, 285 U.S. 355, 365(1932)

11, 14
3, 6-7

State of Texas v. Commonwealth of Pennsylvania Et al,
SCt Case No. 22O155

4

Toney v. White, 488 F.2d 310 (5th Cir. 1973)

15

STATUTES, RULES, CONSTITUTIONAL CITATIONS
U.S. CONST. art. I, § 4 (“Elections Clause”).

5, 6

U.S. CONST. art. II, § 1 (“Electors Clause”).

6

U.S. Const. art. II, §1, cl. 2

5

Fourteenth Amendment of the United States Constitution

5

28 U.S.C. § 1331

1

28 U.S.C. §§ 2201and 2202

3

28 U.S.C. § 1391(b) &(c)

3

28 USC § 1254(1)

4

28 U.S.C.§ 1367

3

Article III, §2 of the United States Constitution

4

28 U.S.C. § 1651(a)

4

28 U.S.C. § 1651(a)

5
ix

42 U.S.C. §§ 1983 and 1988, and under MCL 168.86

6

250 U.S.C. § 20701

1

The Mich. Const., art.2, sec.4,

7

MCL § 168.31a

25

MCL § 168.861

25

Michigan Election Code, MCL §§ 168.730-738,

23

MCL §§ 168.730-738 & Mich. Const. 1963, art. 2, §4(1).

23

MCL § 168.730 & § 168.733(1)

6

MCL § 168.31(1)(a)

6

MCL 168.765a;

6

MCL 168.733

6

MCL §§ 168.42 & 168.43.

6

MCL § 168.31a

21

MCL § 168.861

21

MCL §§ 168.730-738

1

Rule 57, Fed. R. Civ. P.

3

CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, the Petitioners herein disclose the
following: There is no parent or publicly held company owning 10% or
more of Respondent’s stock or corporate interest.

x

INTRODUCTION
Petitioners file this motion seeking immediate relief in
anticipation of their petition for certiorari from the judgment of the
District Court dated December 7, 2020, dismissing their case after
denying their motion for a Temporary Restraining Order. (R.62).
Petitioners filed a notice of appeal to the Sixth Circuit on December 8,
2020. (R.64). Because of the exigencies of time, they have not presented
their case to the Sixth Circuit but, rather, will seek certiorari before
judgment in the court of appeals pursuant to S. Ct. R. 11. This motion
for immediate preliminary relief seeks to maintain the status quo so
that the passage of time and the actions of Respondents do not render
the case moot, depriving this Court of the opportunity to resolve the
weighty issues presented herein and Respondents of any possibility of
obtaining meaningful relief.
Petitioners seek review of the district court’s order denying any
meaningful consideration of credible allegations of massive election
fraud, multiple violations of the Michigan Election Code, see, e.g., MCL §§
168.730-738 and Equal Protection Clause of the U.S. Constitution that
occurred during the 2020 General Election throughout the State of
Michigan. Petitioners presented substantial evidence consisting of sworn
declarations of dozens of eyewitnesses and of experts identifying
statistical anomalies and mathematical impossibilities, as well as a
multistate, conspiracy, facilitated by foreign actors, including China and
Iran, designed to deprive Petitioners to their rights to a fair and lawful
election. The district court ignored it all. It failed to hear from a single
witness or consider any expert and made findings without any
examination of the record.
1

The scheme and artifice to defraud illegally and fraudulently
manipulate the vote count to manufacture the “election” of Joe Biden as
President of the United States. The fraud was executed by many means,
but the most fundamentally troubling, insidious, and egregious ploy was
the systemic adaptation of old-fashioned “ballot-stuffing.” It has now
been amplified and rendered virtually invisible by computer software
created and run the vote tabulation by domestic and foreign actors for
that very purpose. The petition detailed an especially egregious range of
conduct in Wayne County and the City of Detroit, though this conduct
occurred throughout the State with the cooperation and control of
Michigan state election officials, including Respondents.
The multifaceted schemes and artifices to defraud implemented
by Respondents and their collaborators resulted in the unlawful
counting, or outright manufacturing, of hundreds of thousands of illegal,
ineligible, duplicate, or purely fictitious ballots in Michigan. The same
pattern of election fraud and vote-counting fraud writ large occurred in
all the swing states with only minor variations in Michigan,
Pennsylvania, Arizona, and Wisconsin. See Ex. 101, William M. Briggs,
Ph.D. “An Analysis Regarding Absentee Ballots Across Several States”
(Nov. 23, 2020) (“Dr. Briggs Report”). Unlike some other petitions
currently pending, this case presented an enormous amount of
evidence in sworn statements and expert reports. According to the
final certified tally in Michigan, Mr. Biden had a slim margin of
146,000 votes.
The election software and hardware from Dominion Voting
Systems (“Dominion”) used by the Michigan Board of State Canvassers
was created to achieve election fraud. See Ex. 1, Redacted Declaration of
2

Dominion Venezuela Whistleblower (“Dominion Whistleblower Report”).
The Dominion systems derive from the software designed by Smartmatic
Corporation, which became Sequoia in the United States.
The trial court did not examine or even comment on Petitioners’
expert witnesses, including Russell James Ramsland, Jr. (Ex. 101,
“Ramsland Affidavit”), who testified that Dominion alone is responsible
for the injection, or fabrication, of 289,866 illegal votes in Michigan. This
is almost twice the number of Mr. Biden’s purported lead in the
Michigan vote (without consideration of the additional illegal, ineligible,
duplicate or fictitious votes due to the unlawful conduct outlined below).
This, by itself, requires that the district court grant the declaratory and
injunctive relief Petitioners sought. Andrew W. Appel, et al., “Ballot
Marking Devices (BMDs) Cannot Assure the Will of the Voters” at (Dec.
27, 2019), attached hereto as Exhibit 2 (“Appel Study”).
In addition to the Dominion computer fraud, Petitioners identified
multiple means of “traditional” voting fraud and Michigan Election Code
violations, supplemented by harassment, intimidation, discrimination,
abuse, and even physical removal of Republican poll challengers to
eliminate any semblance of transparency, objectivity, or fairness from
the vote counting process. Systematic violations of the Michigan Election
Code cast significant doubt on the results of the election and call for this
Court to set aside the 2020 Michigan General Election and grant the
declaratory and injunctive relief requested herein. King Et al vs.
Whitmer Et al, No. 20-cv-13134, Eastern District of Michigan, Exhibits
1-43, PgID 958-1831.

3

OPINION BELOW
Judge Linda Parker, in the Eastern District of Michigan, without
an evidentiary hearing or even oral argument, denied Petitioners
“Emergency Motion for Declaratory, Emergency, and Permanent
Injunctive Relief.” The court held the Eleventh Amendment bars
Petitioners claims against Respondents (R, 62, PgID, 3307); Petitioners
claims for relief concerning the 2020 General Election were moot (R, 62,
PgID, 3310); Petitioners claims were barred by laches as a result of
“delay” (R,62, PgID, 3313); and abstention is appropriate under the
Colorado River doctrine; (R, 62, PgID 3317). The Court further held
that petitioners lacked standing. (R, 62, PgID 3324).
The Court stated, “it appears that Petitioners’ claims are in fact
state law claims disguised as federal claims” (R, 62, PgID 3324) and held
there was no established equal protection claim (R, 62, PgID 3324). The
Court declined to discuss the remaining preliminary injunction factors
extensively. (R, 62, PgID, 3329). Opinion and Order Attached Denying
Petitioner’s’ Emergency Motion for Declaratory, Emergency, and
Permanent Injunctive Relief. (R. 62).
JURISDICTION
The district Court had subject matter over these federal questions
under 28 U.S.C. § 1331 because it presents numerous claims based on
federal law and the U.S. Constitution. The district court also has subject
matter jurisdiction under 28 U.S.C. § 1343 because this action involves a
federal election for President of the United States. “A significant
departure from the legislative scheme for appointing Presidential
4

electors presents a federal constitutional question.” Bush v. Gore, 531
U.S. 98, 113 (2000) (Rehnquist, C.J., concurring); Smiley v. Holm, 285
U.S. 355, 365(1932).
The district court had authority to grant declaratory relief under
28 U.S.C. §§ 2201and 2202 and by Fed. R. Civ. P. 5 7 . The district
court had supplemental jurisdiction over the related Michigan
constitutional claims and state-law claims under 28 U.S.C.§ 1367.
This Court has jurisdiction under 28 USC § 1254(1) because the
case is in the Court of Appeals for the Sixth Circuit and petitioners
are parties in the case. This Court should grant certiorari before
judgment in the Court of Appeals pursuant to Supreme Court Rule
11 because “the case is of such imperative public importance as to
justify deviation from normal appellate practice and to require
immediate determination in this Court.” The United States
Constitution reserves for state legislatures the power to set the time,
place, and manner of holding elections for Congress and the President,
state executive officers, including but not limited to Secretary
Benson, have no authority to unilaterally exercise that power, much
less flout existing legislation. Moreover, Petitioners Timothy King,
Marian Ellen Sheridan, John Earl Haggard, Charles James Ritchard,
James David Hooper, and Daren Wade Rubingh, are candidates for
the office of Presidential Electors who have a direct and personal
stake in the outcome of the election and are therefore entitled to
challenge the manner in which the election was conducted and the
votes tabulated under the authority of this Court’s decision in Bush v.
Gore, 531 U.S. 98 (2000).
5

Additionally, this Court has jurisdiction pursuant to the All Writs
Act, 28 U.S.C. § 1651(a) and United States Supreme Court Rule 20,
Procedure on a Petition for an Extraordinary Writ. Petitioners will
suffer irreparable harm if they do not obtain immediate relief. The
Electors are set to vote on December 14, 2020. The issues raised are
weighty as they call into question who is the legitimate winner of the
2020 presidential election. These exceptional circumstances warrant the
exercise of the Court’s discretionary powers, particularly as this case
will supplement the Court’s understanding of a related pending case,
State of Texas v. Commonwealth of Pennsylvania et al, S.Ct. Case No.
220155.
The All Writs Act authorizes an individual Justice or the full Court
to issue an injunction when (1) the circumstances presented are “critical
and exigent”; (2) the legal rights at issue are “indisputably clear”; and
(3) injunctive relief is “necessary or appropriate in aid of the Court’s
jurisdiction.” Ohio Citizens for Responsible Energy, Inc. v. NRC, 479 U.S.
1312 (1986) (Scalia, J., in chambers) (citations and alterations omitted).
A submission directly to this Court for a Writ of Certiorari, a
Stay of Proceeding and a Preliminary Injunction is an extraordinary
request, but it has its foundation. While such relief is rare, this Court
will grant it “where a question of public importance is involved, or
where the question is of such a nature that it is peculiarly
appropriate that such action by this Court should be taken.” Ex Parte
Peru, 318 U.S. 578, 585 (1943). See also Cheney v. U.S. Dist. Court,
542 U.S. 367, 380–81 (2004).

6

Here, Petitioners and the public will suffer irreparable harm if this
Court does not act without delay. Once the electoral votes are cast,
subsequent relief would be pointless. In Federal Trade Commission v.
Dean Foods Co., 384 U.S. 597 (1966), the Court affirmed the Seventh
Circuit, finding authority under 28 U.S.C. § 1651(a) to enjoin merger
violating Clayton Act, where the statute itself was silent on whether
injunctive relief was available regarding an application by the FTC.
“These decisions furnish ample precedent to support jurisdiction of the
Court of Appeals to issue a preliminary injunction preventing the
consummation of this agreement upon a showing that an effective
remedial order, once the merger was implemented, would otherwise be
virtually impossible, thus rendering the enforcement of any final decree
of divestiture futile.” Id. at 1743. This Court rendered a similar decision in
Roche v. Evaporated Milk Assn, 319 U.S. 21 (1943), granting a writ of
mandamus, even though there was no appealable order and no
appeal had been perfected because "[o]therwise the appellate
jurisdiction could be defeated and the purpose of the statute
authorizing the writ thwarted by unauthorized action of the district
court obstructing the appeal.”

7

CONSTITUTIONAL AND STATUTORY PROVISIONS
The Fourteenth Amendment of the United States Constitution
provides “nor shall any state deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.”
The Electors Clause states that “[e]ach State shall appoint, in
such Manner as the Legislature thereof may direct, a Number of
Electors” for president. U.S. Const. art. II, §1, cl. 2.
The Elections Clause states: “The Times, Places and Manner of
holding Elections for Senators and Representatives, shall be
prescribed in each State by the Legislature thereof; but the Congress
may at any time by Law make or alter such Regulations, except as to
the Places of chusing Senators.” U.S. Const. art. I, §4, cl. 1.
The Constitution of Michigan, Article II, § 4, clause 1(h) states:
“The right to have the results of statewide elections audited, in such
a manner as prescribed by law, to ensure the accuracy and integrity
of elections. All rights set forth in this subsection shall be selfexecuting. This subsection shall be liberally construed in favor of
voters' rights in order to effectuate its purposes.”
The Michigan Election Code provides voting procedures and rules
for the State of Michigan. M.C.L. § 168.730, designation, qualifications,
and number of challengers, M.C.L. § 168.733,challengers, space in
polling place, rights, space at counting board, expulsion for cause,
protection, threat or intimidation, MCL § 168.31(1)(a) Secretary of state,
duties as to elections, rule MCL 168.765a absent voter counting board.
8

STATEMENT OF THE CASE
Petitioners brought this case to vindicate their constitutional
right to a free and fair election ensuring the accuracy and integrity of
the process pursuant to the Michigan Constitution, art. 2, sec. 4, par.
1(h), which states all Michigan citizens have: “The right to have the
results of statewide elections audited, in such a manner as prescribed
by law, to ensure the accuracy and integrity of elections.”
The Mich. Const., art.2, sec.4, par. 1(h) further states, “All rights
set forth in this subsection shall be self-executing. This subsection shall
be liberally construed in favor of voters' rights in order to effectuate its
purposes.”
These state-law procedures, in turn, implicate Petitioners’
rights under federal law and the U.S. Constitution. “When the state
legislature vests the right to vote for President in its people, the right
to vote as the legislature has prescribed is fundamental; and one
source of its fundamental nature lies in the equal weight accorded to
each vote and the equal dignity owed to each voter.” Bush v. Gore,
531 U.S. at 104.

"[I]n the context of a Presidential election, state-

imposed restrictions implicate a uniquely important national
interest. For the President and the Vice President of the United
States are the only elected officials who represent all the voters in
the Nation." Anderson v. Celebrezze, 460 U.S. 780, 794-795 (1983)
(footnote omitted).

9

Based upon all the allegations of fraud, statutory violations, and
other misconduct, as stated herein and in the attached affidavits, this
Court should exercise its authority to issue the writ of certiorari and
stay the vote for the Electors in Michigan.
Fact Witness Testimony of Voting Fraud & Other Illegal Conduct
Respondents and their collaborators have executed a
multifaceted scheme to defraud Michigan voters, resulting in the
unlawful counting of hundreds of thousands of illegal, ineligible,
duplicate or purely fictitious ballots in the State of Michigan.
Evidence included in Respondents’ complaint and reflected in Section
IV herein shows with specificity the minimum number of ballots that
should be discounted, which is more than sufficient to overturn and
reverse the certified election results. This evidence, provided in the
form of dozens of affidavits and reports from fact and expert
witnesses, further shows that the entire process in Michigan was so
riddled with fraud and illegality that certified results cannot be relied
upon for any purpose by anyone involved in the electoral system.
There were three broad categories of illegal conduct by election
workers in collaboration with other state, county and/or city employees
and Democratic poll watchers and activists.
First, election workers illegally forged, added, removed or
otherwise altered information on ballots, the Qualified Voter File (QVF)
and Other Voting Records, including:

10

A.

Fraudulently adding “tens of thousands” of new ballots and/or

new voters to QVF in two separate batches on November 4, 2020, all or
nearly all of which were votes for Joe Biden.
B.

Forging voter information and fraudulently adding new voters

to the QVF Voters, in particular, e.g., when a voter’s name could not be
found, the election worker assigned the ballot to a random name already
in the QVF to a person who had not voted and recorded these new voters
as having a birthdate of 1/1/1900.
C.

Changing dates on absentee ballots received after the 8:00

PM Election Day deadline to indicate that such ballots were received
before the deadline.
D.
E.

Changing votes for Trump and other Republican candidates.
Adding votes to “undervote” ballots and removing votes from

“overvote” ballots.1
Second, to facilitate and cover up the voting fraud and counting of
fraudulent, illegal or ineligible voters, election workers:
A.

Denied Republican election challengers’ access to the

TCF Center, where all Wayne County, Michigan ballots were
processed and counted.
B.

Denied Republic poll watchers at the TCF Center meaningful

access to view ballot handling, processing, or counting, and locked
credentialed challengers out of the counting room so they could not
observe the process, during which time tens of thousands of ballots were
processed.
1

As explained in Bush v. Gore, “overvote” ballots are those where “the [voting] machines had
failed to detect a vote for President,” 531 U.S. at 102, while “overvote” ballots are those “which
contain more than one” vote for President. Id. at 107.
11

C.

Engaged in a systematic pattern of harassment, intimidation

and even physical removal of Republican election challengers or locking
them out of the TCF Center.
D.

Systematically discriminated against Republican poll

watchers and favored Democratic poll watchers.
E.

Ignored or refused to record Republican challenges to the

violations outlined herein.
F.

Refused to permit Republican poll challengers to observe

ballot duplication and other instances where they allowed ballots to be
duplicated by hand without allowing poll challengers to check if the
duplication was accurate.
G.

Unlawfully coached voters to vote for Joe Biden and to vote a

straight Democrat ballot, including by going over to the voting booths
with voters in order to watch them vote and coach them for whom to
vote. As a result, Democratic election challengers outnumbered
Republicans by 2:1 or 3:1 (or sometimes 2:0 at voting machines).
H.

Collaborated with Michigan State, Wayne County and/or

City of Detroit employees (including police) in all of the above unlawful
and discriminatory behavior.
Third, election workers in some counties committed several
additional categories of violations of the Michigan Election Code to
enable them to accept and count other illegal, ineligible or duplicate
ballots, or reject Trump or Republican ballots, including:
A.

Permitting illegal double voting by persons that had voted by

absentee ballot and in person.
B.

Counting ineligible ballots – and in many cases – multiple

times.
12

C.

Counting ballots without signatures, or without

attempting to match signatures, and ballots without postmarks,
pursuant to direct instructions from Respondents.
D.

Counting “spoiled” ballots.

E.

Systematically violating of ballot secrecy requirements.

F.

Counted unsecured ballots that arrived at the TCF Center

loading garage, not in sealed ballot boxes, without any chain of
custody, and without envelopes, after the 8:00 PM Election Day
deadline, in particular, tens of thousands of ballots that arrived on
November 4, 2020.
G.

Accepting and counting ballots from deceased voters.

Expert Witness Testimony Regarding Voting Fraud
In addition to the above fact witnesses, this Complaint
presented expert witness testimony demonstrating that several
hundred thousand illegal, ineligible, duplicate or purely fictitious votes
must be thrown out, in particular:
(1) A report from Russel Ramsland, Jr. showing the “physical
impossibility” of nearly 385,000 votes tabulated by four precincts on
November 4, 2020 in two hours and thirty-eight minutes, that derived
from the processing of nearly 290,000 more ballots than available
machine counting capacity (which is based on statistical analysis that is
independent of his analysis of Dominion’s flaws).
(2) A report from Dr. William Briggs, showing that there were
approximately 60,000 absentee ballots listed as “unreturned” by voters
that either never requested them, or that requested and returned their
ballots.
13

(3) A report from Dr. Eric Quinell analyzing the anomalous
turnout figures in Wayne and Oakland Counties showing that Biden
gained nearly 100%, and frequently more than 100%, of all “new” voters
in certain townships/precincts over 2016, and thus indicated that nearly
87,000 anomalous and likely fraudulent votes were accepted and
tabulated from these precincts.
Foreign actors interfered in this election. As explained in the
accompanying redacted declaration of a former electronic intelligence
analyst who served in the 305th Military Intelligence Unit with
experience gathering SAM missile system electronic intelligence, the
Dominion software was accessed by agents acting on behalf of China and
Iran in order to monitor and manipulate elections, including the most
recent U.S. general election in 2020. This Declaration further includes a
copy of the patent records for Dominion Systems in which Eric Coomer,
Dominion’s security director, is listed as the first of the inventors of
Dominion Voting Systems. (See Attached hereto as Ex. 105, copy of
redacted witness affidavit, November 23, 2020).
Another expert explains that U.S. intelligence services had
developed tools to infiltrate foreign voting systems, including Dominion.
He states that Dominion's software is vulnerable to data manipulation
by unauthorized means and permitted election data to be altered in all
battleground states. He concludes that hundreds of thousands of votes
that were cast for President Trump in the 2020 general election were
probably transferred to former Vice-President Biden. (Ex. 109).

14

These and other irregularities provide substantial grounds for this
Court to stay or set aside the results of the 2020 General Election in
Michigan and provide the other declaratory and injunctive relief
requested herein.
Irreparable harm will inevitably result for both the public and the
Petitioners if the Petitioners were required to delay this Court’s review
by first seeking relief in the United States Court of Appeals, Sixth
Circuit. Once the electoral votes are cast, subsequent relief would be
pointless and the petition would be moot. As such, petitioners are
requesting this Honorable Court grant the petition under the most
extraordinary of circumstances. A request which, although rare, is not
without precedent.
Similar relief was granted in FTC v. Dean Foods Co., 86 S.Ct.
1738 (1966) affirming the Seventh Circuit, involving an application by
the FTC and a holding by this Court that found authority under 28
U.S.C. § 1651(a) to enjoin merger violating Clayton Act, where statute
itself was silent on whether injunctive relief was available. “These
decisions furnish ample precedent to support jurisdiction of the Court of
Appeals to issue a preliminary injunction preventing the consummation
of this agreement upon a showing that an effective remedial order, once
the merger was implemented, would otherwise be virtually impossible,
thus rendering the enforcement of any final decree of divestiture futile.”
Id. at 1743. A similar decision was reached in In Roche Evaporated Milk
Ass’n, 63 S.Ct. 938, 941 (1943), the Supreme Court granted a writ of
mandamus where there was no appealable order or where no appeal
had been perfected because "[o]therwise the appellate jurisdiction could
be defeated and the purpose of the statute authorizing the writ
15

thwarted by unauthorized action of the district court obstructing the
appeal.”
For these reasons, this Honorable Court should exercise its authority
to review this pending application, to stay the Electoral College Vote
pending disposition of the forthcoming petition for writ of certiorari and to
allow Petitioners a full and fair opportunity to be heard.
ARGUMENT
I. THE TRIAL COURT ERRED WHEN IT DENIED THE
PETITIONERS’ EMERGENCY MOTION BECAUSE
PETITIONERS PRESENTED A PRIMA FACIE CASE OF
WIDESPREAD VOTER IRREGULARITIES AND FRAUD IN
THE STATE OF MICHIGAN IN THE PROCESSING AND
TABULATION OF POLLING-PLACE VOTES AND ABSENTEE
BALLOTS.
The record includes overwhelming evidence of widespread
systemic election fraud and numerous serious irregularities and
mathematical impossibilities not only in the state of Michigan but
numerous states utilizing the Dominion system. Sworn witness
testimony of “Spider”, a former member of the 305th Military
Intelligence Unit, explains how Dominion was compromised and
infiltrated by agents of hostile nations China and Iran, among others.
(R. 49, PgID, 3074). Moreover, expert Russell Ramsland testified that
289,866 ballots must be disregarded as a result of voting machines
counting 384,733 votes in two hours and thirty-eight minutes when the
actual, available voting machinery was incapable of counting more than
94,867 votes in that time frame. (R. 49, PgID, 3074). According to the
final certified tally in Michigan, Mr. Biden has a slim margin of 146,000
votes over President Trump.
16

In the United States, voting is a sacrament without which this
Republic cannot survive. Election integrity and faith in the voting
system distinguishes the United States from failed or corrupt nations
around the world. Our very freedom and all that Americans hold dear
depends on the sanctity of our votes.
Judge Parker issued a Notice of Determination of Motion
without Oral Argument (R. 61, PgID, 3294) on this most sensitive and
important matter. She ignored voluminous evidence presented by
Petitioners proving widespread voter fraud, impossibilities, and
irregularities that undermines public confidence in our election
system and leaves Americans with no reason to believe their votes
counted. It the face of all Petitioners’ evidence, it cannot be said that
the vote tally from Michigan reflects the will of the people. From
abuses of absentee ballots, fraudulent ballots, manufactured ballots,
flipped votes, trashed votes, and injected votes, not to mention the
Dominion algorithm that shaved votes by a more than 2% margin
from Trump and awarded them to Biden, the Michigan results must
be decertified, the process of seating electors stayed, and such other
and further relief as the Court finds is in the public interest, or the
Petitioners show they are entitled.
A. PETITIONERS PRESENTED SUFFICIENT EVIDENCE,
WHICH WAS IGNORED BY THE DISTRICT COURT, TO
WARRANT A PRELIMINARY INJUNCTION WHERE THE
PROFFERED EVIDENCE ESTABLISHED A LIKELIHOOD OF
SUCCESS ON THE MERITS, THAT PETITIONERS WOULD
SUFFER IRREPARABLE HARM IN THE ABSENCE OF
INTERLOCUTORY RELIEF, THAT THE BALANCE OF EQUITIES
TIPS IN THIER FAVOR AND THAT AN INJUNCTION IS IN THE
PUBLIC INTEREST.
17

Respondents have submitted a number of affidavits, consisting
mostly of recycled testimony from ongoing State proceedings, that
purport to rebut Plaintiffs’ fact witnesses all of which boil down to: (1)
they did not see what they thought they saw; (2) maybe they did see
what they thought they saw, but it was legal on the authority of the very
government officials engaged in or overseeing the unlawful conduct; (3)
the illegal conduct described could not have occurred because it is
illegal; and/or (4) even if it happened, those were independent criminal
acts by public employees over whom State Respondents had no control.
Below are a few examples of State Defendant affiants’ nonresponsive responses, evasions and circular reasoning, followed by
Plaintiff testimony and evidence that remains unrebutted by their
testimony.
•

Illegal or Double Counted Absentee Ballots. Affiant Brater
asserts that Plaintiffs’ allegation regarding illegal vote counting
can be “cursorily dismissed by a review of election data,” and
asserts that if illegal votes were counted, there would be
discrepancies in between the numbers of votes and numbers in poll
books. ECF No. 31-3 ¶19. Similarly, Christopher Thomas, asserts
that ballots could not, as Plaintiffs allege, see FAC, Carrone Aff.,
have been counted multiple times because “a mistake like that
would be caught very quickly on site,” or later by the Wayne
County Canvassing Board. ECF No. 39-6 ¶6. Mr. Brater and Mr.
Thomas fail to acknowledge that is precisely what happened: The
Wayne County Canvassing Board found that over 70% of Detroit
Absentee Voting Board (“AVCB”) were unbalanced, and that two
members of Wayne County Board of Canvassers initially refused to
certify results and conditioned certification on a manual recount
and answers to questions such as “[w]hy the pollbooks, Qualified
Voter Files, and final tallies do not match or balance.” FAC ¶¶105107 & Ex. 11-12 (Affidavits of Wayne County Board of Canvasser
Chairperson Monica Palmer and Member William C. Hartmann).
Further, Plaintiffs’ affiants testified to observing poll workers
assigning ballots to different voters than the one named on the
ballot. FAC ¶86 & Larsen Aff. Defendants do not address this
allegation, leaving it un-rebutted.
18

•

Illegal Conduct Was Impossible Because It Was Illegal. Mr.
Thomas wins the Begging the Question prize in this round for
circular reasoning that “[i]t would have been impossible for any
election worker at the TCF Center to count or process a ballot for
someone who was not an eligible voter or whose ballot was not
received by the 8:00 p.m. deadline on November,” and “no ballot
could have been backdated,” because no ballots received after the
deadline “were ever at the TCF Center,” nor could the ballot of an
ineligible voter been “brought to the TCF Center.” ECF No. 39-5
¶20; id. ¶27. That is because it would have been illegal, you
understand. The City of Detroit’s absentee voter ballot quality
control was so airtight and foolproof that only 70% of their
precincts were unbalanced for 2020 General Election, which
exceeded the standards for excellence established in the August
2020 primary where 72% of AVCB were unbalanced. FAC Ex. 11
¶¶7&14.
State Respondents Affiants did not, however, dismiss all of

Plaintiff Affiants’ claims. Rather, they made key admissions that the
conduct alleged did in fact occur, while baldly asserting, without
evidence, that this conduct was legal and consistent with Michigan law.
Defendants admitted that:
•
Election Workers at TCF Center Did Not Match Signatures for
Absentee Ballots.
•
Election Workers Used Fictional Birthdates for Absentee Voters.
ECF No. 39- 5 ¶15. The software made them do it.
Election Workers Altered Dates for Absentee Ballot Envelopes. Mr.
Thomas does not dispute Affiant Jacob’s testimony that “she was
instructed by her supervisor to adjust the mailing date of absentee
ballot packages” sent to voters, but asserts this was legal because “[t]he
mailing date recorded for absentee ballot packages would have no
impact on the rights of the voters and no effect on the processing and
counting of absentee votes.” This is not a factual assertion but a legal
19

conclusion—and wrong to boot. Michigan law the Michigan Constitution
provides all registered voters the right to request and vote by an absentee
ballot without giving a reason. MICH. CONST. art. 2, § 4. M.C.L. § 168.759(3).
That statute limits the procedures for requesting an absentee ballot to
three specified ways: An application for an absent voter ballot under this
section may be made in any of the following ways: By a written request signed
by the voter on an absent voter ballot application form provided for that purpose
by the clerk of the city or township. Or on a federal postcard application. M.C.L.
§ 168.759(3) (emphasis added). The Michigan Legislature thus did not
include the Secretary of State as a means for distributing absentee ballot
applications. Id. § 168.759(3)(b). Under the statute’s plain language, the
Legislature explicitly gave only local clerks the power to distribute absentee
voter ballot applications. Id. Secretary Benson lacked authority to distribute
even a single absentee voter ballot application—much less the millions of
absentee ballot applications Secretary Benson chose to flood across
Michigan.
Secretary Benson also violated Michigan law when she launched a
program in June 2020 allowing absentee ballots to be requested online,
without signature verification as expressly required under Michigan law.
The Michigan Legislature did not approve or authorize Secretary Benson’s
unilateral actions. MCL § 168.759(4) states in relevant part: “An applicant
for an absent voter ballot shall sign the application. Subject to section
761(2), a clerk or assistant clerk shall not deliver an absent voter ballot to
an applicant who does not sign the application.” MCL § 168.761(2), in turn,
states: “The qualified voter file must be used to determine the genuineness
of a signature on an application for an absent voter ballot. Signature
comparisons must be made with the digitized signature in the qualified
voter file.” Nowhere does Michigan Law authorize counting of an absent
voter’s ballot without verifying the voter’s signature.
20

II. THE DISTRICT COURT ERRED WHEN IT DISMISSED
PETITIONERS’ EMERGENCY MOTION AND REQUEST FOR
PRELIMINARY INJUNCTION BY HOLDING THAT THE
PETITIONERS STATE-LAW CLAIMS AGAINST RESPONDENTS
WERE BARRED BY ELEVENTH AMENDMENT IMMUNITY.
The Sixth Circuit recently addressed the scope of Eleventh
Amendment sovereign immunity in the election context in Russell v.
Lundergan-Grimes, 784 F.3d 1037, 1045 (6th Cir. 2015). In Russell, the
appellate court held that federal courts do in fact have the power to
provide injunctive relief where the defendants, “The Secretary of State
and members of the State Board of Elections,” were, like State
Respondents in this case, “empowered with expansive authority to
"administer the election laws of the state.” Russell, 784 F.3d at 1047
(internal quotations omitted).
The appellate court held that the Eleventh
Amendment does not bar“[e]njoining a statewide official
under Young based on his obligation to enforce a law is
appropriate” where the injunctive relief requested sought
to enjoin actions (namely, prosecution) that was within
the scope of the official’s statutory authority.” Id.
This is precisely what the Petitioners request in the Amended
Complaint, namely, equitable and injunctive relief “enjoining Secretary
[of State] Benson and Governor Whitmer from transmitting the
currently certified election results to the Electoral College.” (See ECF
No. 6 ¶1). Under Russell, the Eleventh Amendment is no bar to this
Court granting the requested relief. (R. 49, PgID 3083).

21

III. THE DISTRICT COURT ERREONEOUSLY HELD THAT
THE PETITIONERS CLAIMS SEEKING A PRELIMINARY
INJUNCTION WERE MOOT WHEN THE ELECTORAL COLLEGE
HAS YET TO CERTIFY THE NATIONAL ELECTION AND AS SUCH
THE RELIEF REQUESTED IS TIMELY.
This Court can grant the primary relief requested by Petitioners –
de- certification of Michigan’s election results and an injunction
prohibiting State Respondents from transmitting the certified results –
as discussed below in Section I.E. on abstention. There is also no
question that this Court can order other types of declaratory and
injunctive relief requested by Petitioners – in particular, impounding
Dominion voting machines and software for inspection – nor have State
Respondents claimed otherwise. (R. 49, PgID 3082). The District Court
erroneously held that the Petitioners claims seeking a preliminary
injunction were barred as being moot when the Electoral College has yet
to certify the national election and as such the relief is timely.
IV. THE DISTRICT COURT ERRED WHEN IT HELD THAT
THE PETITIONERS’ CLAIMS WERE BARRED BY LACHES WHEN
THE CLAIMS WERE IN FACT TIMELY MADE AND ADDRESS
HARM THAT IS CONTINUING AND FORTHCOMING, AND THE
RESPONDENTS ARE NOT PREJUDICIED BY ANY DELAYS IN
THE FILING BY THE PETITIONERS.
Laches consists of two elements, neither of which are met here: (1)
unreasonable delay in asserting one's rights; and (2) a resulting
prejudice to the defending party. Meade v. Pension Appeals and Review
Committee, 966 F.2d 190, 195 (6th Cir. 1992). The bar is even higher in
the voting rights or election context, where Respondents asserting the
equitable defense must show that the delay was due to a “deliberate”
choice to bypass judicial remedies and they must do so “by clear and
22

convincing" evidence. Toney v. White, 488 F.2d 310, 315 (5th Cir. 1973).
Petitioners’ “delay” in filing is a direct result of Respondents failure to
complete counting until November 17, 2020. Further, Petitioners’ filed
their initial complaint on November 25, 2020, two days after the
Michigan Board of State Canvassers certified the election on November
23, 2020. (R. 49, PgID 3082).
Additionally, the “delay” in filing after Election Day is almost
entirely due to Respondents failure to promptly complete counting until
weeks after November 3, 2020. Michigan county boards did not complete
counting until November 17, 2020, and Defendant Michigan Board of
State Canvassers did not do so until November 23, 2020, ECF No. 31 at
4—a mere two days before Petitioners filed their initial complaint on
November 25, 2020. Petitioners admittedly would have preferred to file
sooner, but needed time to gather statements from dozens of fact
witnesses, retain and engage expert witnesses, and gather other data
supporting their Complaint, and this additional time was once again a
function of the sheer volume of evidence of illegal conduct by
Respondents and their collaborators. Respondents cannot now assert the
equitable defense of laches, when any prejudice they may suffer is
entirely a result of their own actions and misconduct.
Moreover, much of the misconduct identified in the Complaint was
not apparent on Election Day, as the evidence of voting irregularities
was not discoverable until weeks after the election. William Hartman
explains in a sworn statement dated November 18, 2020, that “on
November 17th there was a meeting of the Board of Canvassers to
determine whether to certify the results of Wayne County” and he had
“determined that approximately 71% of Detroit’s 134 Absentee Voter
23

Counting Boards were left unbalanced and unexplained.” He and
Michele Palmer voted not to Certify and only later agreed to certify after
a representation of a full audit, but then reversed when they learned
there would be no audit. (See ECF No. 6, Ex. 11 &12.) Further, filing a
lawsuit while Wayne County was still deliberating whether or not to
certify, despite the demonstrated irregularities, would have been
premature. Respondents appropriately exhausted their non-judicial
remedies by awaiting the decision of the administrative body charged
with determining whether the vote count was valid. Id.
It is also disingenuous to try to bottle this slowly counted election
into a single day when in fact waiting for late arriving mail ballots and
counting mail ballots persisted long after “Election Day.”
III. THE DISTRICT COURT ERRED WHEN IT DISMISSED
THE PETITIONERS’ CLAIMS BASED ON COLORADO RIVER
ABSTENTION WITHOUT IDENTIFYING ANY PARALLEL STATECOURT PROCEEDINGS THAT ADDRESS THE IDENTICAL
RELIEF SOUGHT.
The District Court accepted State Respondent’ abstention claim
arguments based on Colorado River Water Conservation Dist. v. United
States, 424 U.S. 800, 808 (1976), a case addressing concurrent federal
and state jurisdiction over water rights. See ECF No. 31 at 19-20.
Presumably it did so because the case setting the standard for federal
abstention in the voting rights and state election law context, Harman v.
Forssenius, 380 U.S. 528, 534, (1965) is not favorable to the
Respondents.

24

This Court rejected the argument that federal courts should
dismiss voting rights claims based on federal abstention, emphasizing
that abstention may be appropriate where “the federal constitutional
question is dependent upon, or may be materially altered by, the
determination of an uncertain issue of state law,” and “deference to
state court adjudication only be made where the issue of state law is
uncertain.” Harman, 380 U.S. at 534 (citations omitted). But if state
law in question “is not fairly subject to an interpretation which will
render unnecessary or substantially modify the federal constitutional
question,” then “it is the duty of the federal court to exercise its properly
invoked jurisdiction.” Id. (citation omitted).
Respondents described several ongoing state proceedings where
there is some overlap with the claims and specific unlawful conduct
identified in the Complaint. See ECF No. 31 at 21-26. But State
Respondents have not identified any uncertain issue of state law that
would justify abstention. See ECF No 31 at 21-26. Instead, as
described below, the overlaps involve factual matters and the
credibility of witnesses, and the finding of these courts would not
resolve any uncertainty about state law that would impact Petitioners’
constitutional claims (Electors and Elections Clauses and Equal
Protection and Due Process Clauses).
Respondents’ reliance on Colorado River is also misplaced insofar
as they contend that abstention would avoid “piecemeal” litigation, see
id. at 38, because abstention would result in exactly that. The various
Michigan State proceedings raise a number of isolated factual and
legal issues in separate proceedings, whereas Plaintiffs’ Complaint
addresses most of the legal claims and factual evidence submitted in
25

Michigan State courts, and also introduces a number of new issues that
are not present in any of the State proceedings. Accordingly, the
interest in judicial economy and avoidance of “piecemeal” litigation would
be best served by retaining jurisdiction over the federal and state law claims.
Respondents cited to four cases brought in the State courts in
Michigan, none of which have the same plaintiffs, and all of which are
ongoing and have not been resolved by final orders or judgments. (See
ECF Nos. 31-6 to 31-15.)
The significant differences between this case and the foregoing
State proceedings would also prevent issue preclusion. A four-element
framework finds issue preclusion appropriate if: (1) the disputed issue is
identical to that in the previous action, (2) the issue was actually
litigated in the previous action, (3) resolution of the issue was necessary
to support a final judgment in the prior action, and (4) the party against
whom issue preclusion is sought had a full and fair opportunity to
litigate the issue in the prior proceeding. See Louisville Bedding Co. v.
Perfect Fit Indus., 186 F. Supp. 2d 752, 753-754, 2001 U.S. Dist. LEXIS
9599 (citing Graco Children's Products, Inc. v. Regalo International,
LLC, 77 F. Supp. 2d 660, 662 (E.D. Pa. 1999). None of these
requirements have been met with respect to petitioners or the claims in
the Complaint.
Of equal importance is the fact that the isolated claims in State
court do not appear to present evidence demonstrating that a sufficient
number of illegal ballots were counted to affect the result of the 2020
General Election. The fact and expert witnesses presented in the
Complaint do. As summarized below, the Complaint alleges and
26

provides supporting evidence that the number of illegal votes is
potentially multiples of Biden’s 154,188 margin in Michigan. (See ECF
No. 6 ¶16).
A.
A report from Russell Ramsland, Jr. showing the “physical
impossibility” of nearly 385,000 votes injected by four precincts/township
on November 4, 2020, that resulted in the counting of nearly 290,000
more ballots processed than available capacity (which is based on
statistical analysis that is independent of his analysis of Dominion’s
flaws), a result which he determined to be “physically impossible” (see
Ex. 104 ¶14).
B.
A report from Dr. Louis Bouchard finding it to be
“statistically impossible” the widely reported “jump” in Biden’s vote tally
of 141,257 votes during a single time interval (11:31:48 on November 4),
see Ex. 110 at 28).
C.
A report from Dr. William Briggs, showing that there were
approximately 60,000 absentee ballots listed as “unreturned” by voters
that either never requested them, or that requested and returned
their ballots. (See Ex. 101).
D.
A report from Dr. Eric Quinell analyzing the anomalous
turnout figures in Wayne and Oakland Counties showing that Biden
gained nearly 100% and frequently more than 100% of all “new” voters
in certain townships/precincts when compared to the 2016 election,
and thus indicates that nearly 87,000 anomalous and likely fraudulent
votes came from these precincts. (See Ex. 102).
E.
A report from Dr. Stanley Young that looked at the entire
State of Michigan and identified nine “outlier” counties that had both
significantly increased turnout in 2020 vs. 2016, almost all of which went
to Biden totaling over 190,000 suspect “excess” Biden votes (whereas
turnout in Michigan’s 74 other counties was flat). (See Ex. 110).
F.
A report from Robert Wilgus analyzing the absentee ballot
data that identified a number of significant anomalies, in particular,
224,525 absentee ballot applications that were both sent and returned
on the same day, 288,783 absentee ballots that were sent and
returned on the same day, and 78,312 that had the same date for all
(i.e., the absentee application was sent/returned on same day as the
absentee ballot itself was sent/returned), as well as an additional
217,271 ballots for which there was no return date (i.e., consistent with
eyewitness testimony described in Section II below). (See Ex. 110).
27

G.
A report from Thomas Davis showing that in 2020 for larger
Michigan counties like Monroe and Oakland Counties, that not only was
there a higher percentage of Democrat than Republican absentee voters
in every single one of hundreds of precincts, but that the Democrat
advantage (i.e., the difference in the percentage of Democrat vs.
Republican absentee voter) was consistent (+25%-30%) and the
differences were highly correlated, whereas in 2016 the differences were
uncorrelated. (See Ex. 110).
H.
A report by an affiant whose name must be redacted to
protect his safety concludes that “the results of the analysis and the
pattern seen in the included graph strongly suggest a systemic, systemwide algorithm was enacted by an outside agent, causing the results of
Michigan’s vote tallies to be inflated by somewhere between three and
five-point six percentage points. Statistical estimating yields that in
Michigan, the best estimate of the number of impacted votes is 162,400.
However, a 95% confidence interval calculation yields that as many as
276,080 votes may have been impacted.” (See Ex. 111 ¶13).
IV. THE DISTRICT COURT ERRED WHEN IT HELD THAT
PETITIONERS, WHO ARE CANDIDATES FOR THE OFFICE OF
PRESIDENTIAL ELECTOR, LACKED STANDING TO PURSUE
THEIR EQUAL PROTECTION AND OTHER CLAIMS
Petitioners are not simply voters seeking to vindicate their rights
to an equal and undiluted vote, as guaranteed by Michigan law and
the Equal Protection Clause of the U.S. Constitution, as construed by
this court in Reynolds v. Sims, 377 U.S. 533 (1964) and its progeny.
Rather, Petitioners are candidates for public office. Having been
selected by the Republican Party of Michigan at its 2019 Fall
convention, and their names having been certified as such to the
Michigan Secretary of States pursuant to Michigan Election Law
168.42, they were nominated to the office of Presidential Electors in
the November 2020 election pursuant to MCL § 168.43. Election to
this office is limited to individuals who have been citizens of the
United States for 10 years, and registered voters of the district (or the
28

state) for at least 1 year, and carries specific responsibilities defined
by law, namely voting in the Electoral College for President and VicePresident. MCL §168.47. While their names do not appear on the
ballot, Michigan Law makes it clear that the votes cast by voters in
the presidential election are actually votes for the presidential electors
nominated by the party of the presidential candidate listed on the
ballot. MCL § 168.45.2
The standing of Presidential Electors to challenge fraud,
illegality and disenfranchisement in a presidential election rests on a
constitutional and statutory foundation—as if they are candidates, not
voters.3 Theirs is not a generalized grievance shared by all other
voters; they are particularly aggrieved by being wrongly denied the
responsibility, emoluments and honor of serving as members of the
Electoral College, as provided by Michigan law. Petitioners have the
requisite legal standing, and the district court must be reversed on
this point. As in the Eighth Circuit case of Carson v. Simon, 978 F.3d
1051 (8th Cir. 2020),“[b]ecause Minnesota law plainly treats
presidential electors as candidates, we do, too.” Id. at 1057. And this
Court’s opinion in Bush v. Gore, 531 U.S. 98 (2000) (failure to set
state-wide standards for recount of votes for presidential electors
violated federal Equal Protection), leaves no doubt that presidential
candidates have standing to raise post-election challenges to the
This section provides: “ Marking a cross (X) or a check mark ( ) in the circle under
the party name of a political party, at the general November election in a presidential
year, shall not be considered and taken as a direct vote for the candidates of that
political party for president and vice-president or either of them, but, as to the
presidential vote, as a vote for the entire list or set of presidential electors chosen by
that political party and certified to the secretary of state pursuant to this chapter.”
3 See https://sos.ga.gov/index.php/Elections/voter_registration_statistics, last visited
November 5, 2020.
2

29

manner in which votes are tabulated and counted. The district court
therefore clearly erred in concluding that Petitioners lack standing to
raise this post-election challenge to the manner in which the vote for
their election for public office was conducted.
There is further support for Petitioners’ standing in the Court’s
recent decision in Carney v. Adams involving a challenge to the
Delaware requirement that you had to be a member of a major
political party to apply for appointment as a judge. In Adams, the
Court reiterated the standard doctrine about generalized grievance
not being sufficient to confer standing and held that Adams didn’t
have standing because he "has not shown that he was 'able and
ready' to apply for a judicial vacancy in the imminent future". In this
case, however, Petitioners were not only “able and ready” to serve as
presidential electors, they were nominated to that office in
accordance with Michigan law.
The Respondents have presented compelling evidence that
Respondents not only failed to administer the November 3, 2020 election
in compliance with the manner prescribed by the Michigan Legislature
in the Michigan Election Code, MCL §§ 168.730-738, but that
Respondents executed a scheme and artifice to fraudulently and illegally
manipulate the vote count to ensure the election of Joe Biden as
President of the United States. This conduct violated Petitioners’ equal
protection and due process rights, as well their rights under the
Michigan Election Code and Constitution. See generally MCL §§ 168.730738 & Mich. Const. 1963, art. 2, §4(1).

30

In considering Petitioners’ constitutional and voting rights claims
under a “totality of the circumstances” standard, this Court must consider
the cumulative effect of the specific instances or categories of
Respondents’ voter dilution and disenfranchisement claims. Taken
together, these various forms of unlawful and unconstitutional
conduct destroyed or shifted tens or hundreds of thousands of Trump
votes, and illegally added tens or hundreds of thousands of Biden votes,
changing the result of the election, and effectively disenfranchising
the majority of Michigan voters. If such errors are not address we
may be in a similar situation as Kenya, where voting has been
viewed as not simply irregular but a complete sham. (Coram:
Maraga, CJ & P, Mwilu, DCJ & V-P, Ojwang, Wanjala, Njoki and
Lenaola, SCJJ)
CONCLUSION
WHEREFORE, the Petitioners respectfully request this Honorable
Court enter an emergency order instructing Respondents to de-certify
the results of the General Election for the Office of the President,
pending disposition of the forthcoming Petition for Certiorari.
Alternatively, Petitioners seek an order instructing the Respondents to
certify the results of the General Election for Office of the President in
favor of President Donald Trump.
Petitioners seek an emergency order prohibiting Respondents from
including in any certified results from the General Election the
tabulation of absentee and mailing ballots which do not comply with the
Michigan Election Code, including the tabulation of absentee and mailin ballots Trump Campaign’s watchers were prevented from observing
31

or based on the tabulation of invalidly cast absentee and mail-in ballots
which (i) lack a secrecy envelope, or contain on that envelope any text,
mark, or symbol which reveals the elector’s identity, political affiliation,
or candidate preference, (ii) do not include on the outside envelope a
completed declaration that is dated and signed by the elector, (iii) are
delivered in-person by third parties for non-disabled voters, or (iv) any of
the other Michigan Election Code violations set forth in Section II of the
petition.
Petitioners respectfully request an order of preservation and
production of all registration data, ballots, envelopes, voting machines
necessary for a final resolution of this dispute.
Respectfully submitted,
SIDNEY POWELL
Sidney Powell, P.C.
2911 Turtle Creek, Blvd,

/s/ Howard Kleinhendler
HOWARD KLEINHENDLER
Howard Kleinhendler Esquire
Suite 300
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

Dallas, Texas 75219
(517) 763-7499
sidney@federaappeals.com
Of Counsel
JULIA Z. HALLER
BRANDON JOHNSON
EMILY P. NEWMAN

STEFANIE LAMBERT JUNTTILA
500 Griswold Street, Suite 2340
Detroit, Michigan 48301
(248) 270-6689
attorneystefanielambert@gmail.com

L. LIN WOOD
L. LIN WOOD, P.C.
P.O.Box 52584
Atlanta, GA 30305
(404) 891-1402

SCOTT HAGERSTROM
222 West Genesee
Lansing, Michigan 48933
Date: December 10, 2020

Gregory J Rohl
41850 West 11 Mile Road, Suite 110
Novi MI 48375

32

CERTIFICATE OF COMPLIANCE
The attached Writ of Certiorari complies with the type-volume limitation. As
required by Supreme Court Rule 33.1(h), I certify that the document contains 8,324
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
Respectfully submitted,

/s/ Howard Kleinhendler
HOWARD KLEINHENDLER
Attorney for Plaintiff/Petitioners
369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com
SIDNEY POWELL
STEFANIE LAMBERT JUNTTILA
Attorneys for Plaintiffs/Petitioners
500 Griswold Street, Suite 2340
Detroit, MI 48226
(248) 270-6689
attorneystefanielambert@gmail.com
Date: December 11, 2020

CASE NO.

IN THE SUPREME COURT OF THE UNITED STATES

TIMOTHY KING, MARIAN ELLEN SHERIDAN, JOHN EARL HAGGARD,
CHARLES JAMES RITCHARD, JAMES DAVID HOOPER and DAREN WADE
RUBINGH,
Plaintiffs/Petitioners,
v.
GRETCHEN WHITMER, in her official capacity as Governor of the State of
Michigan, JOCELYN BENSON, in her official capacity as Michigan Secretary of
State and the Michigan
BOARD OF STATE CANVASSERS
Defendants/Respondents,
and
CITY OF DETROIT, DEMOCRATIC NATIONAL COMMITTEE and MICHIGAN
DEMOCRATIC PARTY, and ROBERT DAVIS,
Intervenor-Defendants/Respondents.

PROOF OF SERVICE
STATE OF MICHIGAN)
)ss
COUNTY OF WAYNE )
STEFANIE LAMBERT JUNTTILA, affirms, deposes and states that on the
11th day of December, 2020, she did cause to be served the following:

1. PETITION FOR WRIT OF CERTIORARI On Petition for a Writ of
Certiorari to the United States Federal District Court for the Eastern District of
Michigan;
2. Attached Exhibits;
3. Certificate of Conformity;
4. Proof of Service
UPON:
ERIK A. GRILL
HEATHER S. MEINGAST
Michigan Department of Attorney General
Civil Litigation, Employment & Elections Division
PO Box 30736
Lansing, MI 48909
517-335-7659
Email: grille@michigan.gov
DARRYL BRESSACK
DAVID H. FINK and NATHAN J. FINK
Attorneys as Law
38500 Woodward Avenue; Suite 350
Bloomfield Hills, MI 48304
248-971-2500
Email: dbressack@finkbressack.com
ANDREW A. PATERSON, JR.
Attorney at Law
46350 Grand River Ave.
Novi, MI 48374
248 568-9712
Email: aap43@hotmail.com
MARY ELLEN GUREWITZ
Attorney at Law
Cummings & Cummings Law PLLC
423 North Main Street; Suite 200
Royal Oak, MI 48067
313-204-6979
Email: megurewitz@gmail.com

SCOTT R. ELDRIDGE
Attorney at Law
Miller, Canfield,
One Michigan Avenue
Suite 900
Lansing, MI 48933-1609
517-483-4918
Email: eldridge@millercanfield.com
DANIEL M. SHARE
EUGENE DRIKER
STEPHEN E. GLAZEK
Attorney at Law
Barris, Sott, Denn & Driker, PLLC
333 West Fort Street; 12th Floor
Detroit, MI 48226
313-965-9725
Email: dshare@bsdd.com
EZRA D. ROSENBERG
Lawyers' Committee for Civil Rights Under Law
1500 K Street, NW; Suite 900
Washington, DC 20005
202-662-8345
Email: erosenberg@lawyerscommittee.org
JON GREENBAUM
Lawyers' Committee for Civil Rights Under Law
District Of Columbia
1500 K Street NW
Ste 9th Floor
Washington, DC 20005
202-662-8315
Email: jgreenbaum@lawyerscommittee.org
By email and by placing said copies in a properly addressed envelope with sufficient
postage fully prepaid, and placing in a U.S. Mail Receptacle.
FURTHER AFFIANT SAYETH NOT.
/s/ Stefanie Lambert Junttila
STEFANIE LAMBERT JUNTTILA

